Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 CMS REGULARLY REVIEWS
     PART C REPORTING
 REQUIREMENTS DATA, BUT
 ITS FOLLOWUP AND USE OF
  THE DATA ARE LIMITED




                    Daniel R. Levinson
                     Inspector General

                      March 2014
                     OEI-03-11-00720
EXECUTIVE SUMMARY: CMS Regularly Reviews Part C Reporting
Requirements Data, But Its Followup and Use of the Data Are Limited
OEI-03-11-00720

WHY WE DID THIS STUDY

In 2012, 27 percent of Medicare beneficiaries were enrolled in Medicare Advantage
(MA) plans. The Centers for Medicare & Medicaid Services (CMS) has collected data
from MA organizations under the Part C Reporting Requirements since 2009. These data
are intended to serve as a resource for CMS to conduct the oversight, monitoring,
compliance, and auditing activities that are necessary to ensure the quality of benefits that
MA plans provide to enrollees. CMS contracted with Acumen to review and analyze all
Part C Reporting Requirements data submitted by MA organizations, identify data issues,
and notify affected MA organizations. The Part C Reporting Requirements data are a
significant resource for oversight and improvement of the MA program because they
pertain to the performance of MA organizations and often are not available to CMS from
other sources.

HOW WE DID THIS STUDY

We reviewed the extent and types of data issues that Acumen identified for Part C
Reporting Requirements measures that were active in 2010 and 2011. We determined the
steps that Acumen took to identify these data issues and the steps CMS took to address
them. We reviewed the extent to which CMS used the Part C Reporting Requirements
data to monitor and assess MA organizations’ performance.

WHAT WE FOUND

CMS implemented regular and extensive reviews of the Part C Reporting Requirements
data, but it conducted minimal followup on data issues identified for 2010 and 2011.
MA organizations that submitted outlier data values accounted for most of the data issues
that Acumen identified. Other issues included inconsistent and overdue data. CMS did
not contact any MA organizations to determine whether outliers reflected inaccurate
reporting or atypical performance, or to ensure that inconsistent data were corrected.
Despite its investments in contractor reviews of the data, CMS has made limited use of
the Part C Reporting Requirements data.

WHAT WE RECOMMEND

Our findings indicate that additional effort is needed to ensure appropriate oversight and
use of these data. We recommend that CMS (1) determine whether outlier data values
submitted by MA organizations reflect inaccurate reporting or atypical performance, (2)
use appropriate Part C Reporting Requirements data as part of its reviews of MA
organizations’ performance, and (3) establish a timeline for releasing Public Use Files for
the Part C Reporting Requirements data. CMS concurred with our recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................8 

Findings......................................................................................................11

           CMS implemented regular and extensive reviews of the Part C 

           data, but it conducted minimal followup on data issues identified 

           for 2010 and 2011 ..........................................................................11

           CMS has made limited use of the Part C data despite its 

           investments in contractor reviews of the data ................................14 

Conclusion and Recommendations ............................................................18 

           Agency Comments and Office of Inspector General Response.....19 

Appendixes ................................................................................................21 

           A: Descriptions of the Part C Reporting Requirements 

           Measures ........................................................................................21 

           B: Agency Comments ...................................................................24 

Acknowledgments......................................................................................27 

                  OBJECTIVES
                  1.	 To review the number and types of issues with Medicare Advantage
                      (MA) organizations’ submissions of Part C Reporting Requirements
                      data and the extent to which the Centers for Medicare & Medicaid
                      Services (CMS) addressed these issues.
                  2.	 To review the extent to which CMS has used the data analysis results
                      and data validation audit findings for the Part C Reporting
                      Requirements data to improve the quality of these data and to review
                      the extent to which CMS has used these data to monitor, assess, and
                      improve MA organizations’ performance.

                  BACKGROUND
                  The Medicare Advantage Program
                  Under Medicare Part C, private insurance companies, known as
                  MA organizations, contract with CMS to provide coverage of Medicare
                  services under managed care arrangements. MA organizations can offer
                  one or more MA plans that provide all Medicare Part A and B services and
                  may provide additional services, such as enhanced benefits and Part D
                  prescription drug coverage. In 2012, 27 percent of Medicare beneficiaries
                  were enrolled in MA plans.1 Of the $537 billion in total Medicare
                  expenses in fiscal year 2012, $134 billion was expended under the
                  MA program.2
                  Part C Reporting Requirements
                  Federal regulations at 42 CFR § 422.516(a) establish data-reporting
                  requirements for MA organizations. The regulations specify that
                  MA organizations must have effective procedures to develop, compile,
                  evaluate, and report statistics and other information to CMS, enrollees,
                  and the public regarding (1) utilization, accessibility, and acceptability of
                  services; (2) enrollee health status; (3) operational costs; and (4) other
                  matters CMS may require. The Part C Reporting Requirements are a
                  group of measures that CMS lists in annual technical specifications




                  1
                    Kaiser Family Foundation (KFF), Medicare Advantage Fact Sheet, November 2012.
                  Accessed at http://kff.org/medicare/fact-sheet/medicare-advantage-fact-sheet/ on
                  August 29, 2013.
                  2
                    CMS, CMS Financial Report Fiscal Year 2012, November 2012, p. 5. Accessed at
                  http://www.cms.gov/Research-Statistics-Data-and-Systems/Statistics-Trends-and-
                  Reports/CFOReport/ on April 1, 2013.


CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)           1
                  documents.3, 4 Beginning January 1, 2009, CMS required MA
                  organizations to collect data elements under 13 measures:
                           Benefit Utilization,
                           Procedure Frequency,
                           Serious Reportable Adverse Events (Adverse Events),
                           Provider Network Adequacy,
                           Grievances,
                           Organization Determinations and Reconsiderations,
                           Employer Group Plan Sponsors,
                           Private Fee-for-Service Plan Enrollment Verification Calls,
                           Private Fee-for-Service Provider Payment Dispute Resolution
                            Process,
                           Agent Compensation Structure,
                           Agent Training and Testing,
                           Plan Oversight of Agents, and
                           Special Needs Plans Care Management.5
                  Appendix A contains descriptions of each of these Part C Reporting
                  Requirements measures.
                  The measures are each composed of specific data elements that
                  MA organizations must report to CMS. For example, the Adverse Events
                  measure is made up of 21 different data elements, including the number of
                  surgeries on the wrong body part and the number of surgeries with a
                  foreign object left in the patient.
                  Some measures are reported at the level of the MA contract (i.e., at the
                  level of the MA organization’s contract with CMS), and other measures
                  are reported at the level of the MA plan offered under a given contract.6 In
                  addition, CMS requires some measures to be reported annually and others
                  quarterly. Not all measures are required to be reported for all plan types.


                  3
                    In addition to the Part C Reporting Requirements data, CMS requires MA organizations
                  to report other sets of data, such as the Healthcare Effectiveness Data and Information Set
                  and the Medicare Health Outcomes Survey.
                  4
                    CMS now refers to Part C Reporting Requirements measures as “reporting sections.”
                  The term “measures” was used during the period of our review. Therefore, we use this
                  term throughout the report.
                  5
                    CMS, Medicare Part C Plan Reporting Requirements Technical Specifications
                  Document, April 20, 2009, pp. 5–7. 

                  6
                    CMS, 2011 Medicare Part C Plan Reporting Requirements Technical Specifications

                  Document, December 2011, pp. 7–8. Accessed at http://www.cms.gov/Medicare/Health-
                  Plans/HealthPlansGenInfo/ReportingRequirements.html on April 10, 2013. 



CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)                      2
                  Throughout this report, we will use the term “Part C data” to refer to the
                  data submitted by MA organizations under the Part C Reporting
                  Requirements. CMS collects and manages these data in the Health Plan
                  Management System (HPMS).7 MA organizations can submit their data to
                  this system electronically through online data-entry pages and file uploads.
                  In 2010, 611 MA contracts submitted Part C data to HPMS. In 2011,
                  575 MA contracts submitted such data. For both years, all MA
                  organizations that were required to submit Part C data eventually did so.
                  CMS has suspended reporting requirements for 6 of the original
                  13 measures: Benefit Utilization, Procedure Frequency, Provider Network
                  Adequacy, Agent Compensation Structure, Agent Training and Testing,
                  and Plan Oversight of Agents.8 Two of these measures—Agent
                  Compensation Structure and Agent Training and Testing—were suspended
                  after 2009, the first year of Part C reporting. For all of the suspended
                  measures except Plan Oversight of Agents, CMS has indicated that it will
                  derive these data from other sources. For the Plan Oversight of Agents
                  measure, CMS plans to revise the set of data elements and resume its
                  collection in 2014.9
                  Significance of Part C Reporting Requirements Data
                  The data collected under the Part C Reporting Requirements pertain to the
                  performance of MA organizations and often are not available to CMS
                  from other sources. In a June 2008 Federal Register notice regarding
                  Part C data collection, CMS stated that the data “will be an integral
                  resource for oversight, monitoring, compliance, and auditing activities”
                  that are necessary to ensure the quality of benefits that MA plans provide
                  to enrollees.10
                  To obtain the required Federal approval for collecting the Part C data from
                  MA organizations, CMS submitted justifications for the Reporting
                  Requirements measures. For example, for the Adverse Events measure,
                  CMS indicated that “reliable and valid reporting about the occurrence of
                  [adverse] events … is necessary so that the causes of these events can be
                  identified and processes of care improved.” For the Grievances measure,


                  7
                    The purpose of HPMS is to collect and maintain information on MA and Part D plans.
                  This information includes, but is not limited to, beneficiaries’ use of services, the MA
                  and Part D contractor application process, plan oversight, and the tracking of complaints
                  reported to 1-800-Medicare. 73 Fed. Reg. 2257 (Jan. 14, 2008).
                  8
                    CMS, Medicare Part C Plan Reporting Requirements Technical Specifications
                  Document Contract Year 2013, February 13, 2013, p. 2. Accessed at
                  http://www.cms.gov/Medicare/Health-Plans/HealthPlansGenInfo/ 

                  ReportingRequirements.html on April 2, 2013. 

                  9
                    Ibid. 

                  10
                     73 Fed. Reg. 36329 (June 26, 2008). 



CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)                    3
                  CMS stated that it needed these data to “determine if there are issues that
                  are troubling to enrollees and may adversely affect their privacy, access to
                  care, satisfaction with their plan, and the quality of care they are
                  receiving.”11
                  As recently as June 2013, CMS stated that it needs the Part C data to
                  respond to questions about “beneficiary use of available services, patient
                  safety, grievance rates, and other factors pertaining to performance of
                  MA plans” that could not be answered prior to collection and reporting of
                  these data.12 CMS also noted that “less frequent collection [of the Part C
                  data] would severely limit CMS’ ability” to oversee and monitor
                  MA benefits.
                  CMS has not included any of the Part C Reporting Requirements measures
                  in its calculation of star ratings for MA plans. (These ratings are posted
                  for consumers on the Medicare Plan Finder Web site and used to award
                  value-based bonus payments to MA plans.) However, in April 2013, CMS
                  stated that it was considering adding the Special Needs Plans Care
                  Management measure to the 2015 ratings.13
                  As of May 2013, CMS had posted selected data for the Grievances and
                  Special Needs Plans Care Management measures on the Part C and D
                  Performance Data page of CMS.gov. Although CMS indicated that it was
                  considering including data related to the Adverse Events measure on the
                  CMS.gov page in 2013, it had not posted any such data as of September
                  2013.14




                  11
                     CMS, Supporting Statement for Paperwork Reduction Act Submissions: Part C
                  Medicare Advantage Reporting Requirements and Supporting Regulations in 42 CFR
                  § 422.516(a), November 17, 2008, pp. 5 and 8. Accessed at
                  http://www.reginfo.gov/public/do/PRAViewDocument?ref_nbr=200810-0938-009 on
                  July 23, 2013.
                  12
                     CMS, Supporting Statement for Paperwork Reduction Act Submission: Part C
                  Medicare Advantage Reporting Requirements and Supporting Regulations in 42 CFR
                  § 422.516(a), CMS-10261, June 21, 2013, pp. 7–8. Accessed at
                  http://www.cms.gov/Regulations-and-
                  Guidance/Legislation/PaperworkReductionActof1995/PRA-Listing.html on July 18,
                  2013.
                  13
                     CMS, Announcement of Calendar Year (CY) 2014 Medicare Advantage Capitation Rates
                  and Medicare Advantage and Part D Payment Policies and Final Call Letter, April 1, 2013,
                  p. 110. Accessed at http://www.cms.gov/Medicare/Health-
                  Plans/MedicareAdvtgSpecRateStats/Downloads/Announcement2014.pdf on June 27, 2013.
                  14
                     CMS, Announcement of Calendar Year (CY) 2013 Medicare Advantage Capitation Rates
                  and Medicare Advantage and Part D Payment Policies and Final Call Letter, April 2, 2012,
                  p. 83. Accessed at http://www.cms.gov/medicare/health-
                  plans/healthplansgeninfo/downloads/2013-call-letter.pdf on April 24, 2013.



CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)                   4
                  Analysis of Part C Reporting Requirements Data
                  CMS contracted with Acumen “to validate, prepare, and analyze Medicare
                  Parts C and D Reporting Requirements data” that MA contracts began to
                  report in 2009.15 CMS intended for the services provided under the
                  Acumen contract to (1) enable it to monitor and measure the compliance
                  of MA organizations with Federal regulations and (2) help it to ensure that
                  beneficiaries receive quality care. CMS paid Acumen $242,583 to
                  perform these services in 2012.
                  Some of the tasks that CMS specified in Acumen’s Statement of Work
                  were:
                         monitoring the completeness of MA contracts’ submissions of
                          Part C data,
                        	 identifying MA contracts that are potential outliers or may have
                           submitted inconsistent data for selected Part C Reporting
                           Requirements measures,
                        	 performing quantitative analysis of submitted data, and
                        	 creating Public Use Files for the Part C data.
                  Since 2009, Acumen has downloaded Part C data from HPMS and
                  reviewed all MA contracts’ data submissions. For each reporting period,
                  Acumen created methodology documents describing how it reviewed the
                  Part C data. Acumen identified MA contracts that did not submit data by
                  the due date, submitted data that contained placeholders, submitted data
                  that were inconsistent, or submitted outlier data values.16 Acumen sent
                  email and Web notifications to these MA contracts. Before sending these
                  notifications, Acumen provided lists of the MA contracts to CMS for
                  review and approval. CMS has not required Acumen to determine, on a
                  regular basis, whether MA contracts resubmitted their data in response to
                  the notifications or to follow up with MA contracts regarding identified
                  data issues. Table 1 on the following page lists the data reviews that CMS
                  required Acumen to perform for each Part C Reporting Requirements
                  measure for 2010 and 2011.


                  15
                     CMS, Statement of Work for Contract GS-10F-0133S, Task Order
                  HHSM-500-2008-00428G, September 16, 2008.
                  16
                     An MA contract is considered to have submitted Part C data that contain placeholders
                  if it submitted values of zero for two or more measures in a single reporting period. An
                  MA contract submitted inconsistent data if it submitted data values for a measure that
                  contradict one another. For example, data submitted by an MA contract for the Plan
                  Oversight of Agents measure would be inconsistent if the number of sales agents
                  investigated on the basis of complaints exceeded the total number of sales agents for that
                  MA contract. An outlier data value is an individual data value that falls outside a
                  specified range of reported values, or falls above or below a predetermined benchmark
                  value.


CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)                     5
                       Since 2010, Acumen has provided CMS with annual reports of the results
                       of its quantitative analyses of the Part C data submitted by MA contracts.
                       These reports include a descriptive summary of the data submitted for
                       each measure, including ranges and means; analyses of the data by data
                       element and type of MA contract; and characteristics of MA contracts with
                       outlier data values. Acumen has also produced ad hoc reports at CMS’s
                       request, including reports that summarize the data submitted for specific
                       measures, focus on data submitted by selected MA contracts, and identify
                       data trends across multiple years.

Table 1: Data Reviews Performed by Acumen on Part C Reporting Requirements for 2010
and 2011

                                    Measure             Measure                 Measure               Measure
                                    Reviewed for        Reviewed for            Reviewed for          Reviewed for
 Measure
                                    Overdue             Placeholder             Inconsistent          Outlier Data
                                    Data                Data                    Data                  Values
                                              1                     1                                            1
 Benefit Utilization
 Procedure Frequency
                                                                                           2
 Adverse Events

 Provider Network Adequacy

 Grievances
 Organization Determinations
 and Reconsiderations
 Employer Group Plan
 Sponsors
 Private Fee-for-Service Plan                                       1                                            1
 Enrollment Verification Calls
 Private Fee-for-Service
                                                                    1                                            1
 Provider Payment Dispute
 Resolution Process
 Plan Oversight of Agents
 Special Needs Plans Care                                                                  2
 Management
Source: Office of Inspector General (OIG) review of Part C Reporting Requirements Methodology Documents provided by

Acumen. 

1
  Measure reviewed for 2010 only. CMS suspended the Benefit Utilization measure after 2010. Acumen did not review the 

Private Fee-for-Service measures for placeholder data or outlier data values for 2011; CMS specified that these measures 

would be used for monitoring only.

2
  Measure reviewed for 2011 only. Acumen did not review the Adverse Events and Special Needs Plans Care Management 

measures for inconsistent data for 2010.





CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)                             6
                  Beginning in September 2010, CMS added a plan-monitoring task to
                  Acumen’s contract. This requires Acumen to create performance metrics
                  for MA organizations using Part C data related to access to care and
                  quality of care. As specified in the Statement of Work, the purpose of this
                  task is to help CMS proactively identify MA organizations with potential
                  program compliance issues. In January 2012, Acumen provided CMS
                  with performance scores for 548 MA contracts on the basis of the Part C
                  data submitted for 2010.
                  Data Validation Audits of Part C Reporting Requirements Data
                  In 2010, CMS amended 42 CFR § 422.516 to state that each MA contract
                  is subject to an independent yearly audit of data submitted for the Part C
                  Reporting Requirements. The audits were designed to uncover
                  deficiencies in MA contracts’ reporting practices and to verify that the
                  Part C data values that MA contracts submit to CMS are supported by
                  documentation and data files. As part of the rationale for this amendment,
                  CMS specified that the retrospective data validation audits will focus on
                  how each MA organization collects, reports, and stores its data; takes into
                  account appropriate data exclusions; and verifies its calculations.17
                  CMS requires all MA contracts to hire an independent, external entity to
                  perform the required audits. These data validation auditors conduct the
                  audits for selected Part C Reporting Requirements measures in accordance
                  with procedures and standards developed by CMS.18, 19 Auditors may
                  review either a sample or all of the Part C data reported for an
                  MA contract, in addition to policies, procedures, and source documents. A
                  data validation audit of an MA contract does not take into account the data
                  issues that Acumen identified for that contract.
                  CMS assigns a score to each MA contract on the basis of the audit
                  findings. CMS establishes an overall score threshold that it uses to
                  determine whether an MA contract receives a “Pass” (for a score that
                  meets or exceeds the threshold) or a “Not Pass” (for a score that falls


                  17
                     75 Fed. Reg. 19678, 19760–19761 (April 15, 2010). 

                  18
                     For 2011, the first year of data validation audits, CMS included data elements under 

                  five of the Part C Reporting Requirements measures: Provider Network Adequacy, 

                  Grievances, Organization Determinations and Reconsiderations, Employer Group Plan

                  Sponsors, and Plan Oversight of Agents. CMS, Medicare Part C and Part D Reporting 

                  Requirements Data Validation Procedure Manual, December 2010, p. 3. 

                  19
                     For the 2012 audits, CMS added data elements under three additional Part C Reporting

                  Requirements measures: Procedure Frequency, Adverse Events, and Special Needs Plans 

                  Care Management. CMS, Medicare Part C and Part D Reporting Requirements Data

                  Validation Procedure Manual, Version 2.0: December 2011, p. 3. Accessed at 

                  http://www.cms.gov/Medicare/Prescription-Drug-
                  Coverage/PrescriptionDrugCovContra/Downloads/DVProcedureManualVer2.pdf on

                  June 26, 2013. 



CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)               7
                  below the threshold).20 For the audits performed in 2011, the score
                  threshold was 70 percent. For the audits performed in 2012, CMS raised
                  the score threshold to 90 percent. CMS issues a report to all MA contracts
                  to notify them of their audit scores. CMS requires any MA contract that
                  scored below the threshold to submit a corrective action plan.

                  METHODOLOGY
                  Scope
                  We reviewed the extent and types of issues with Part C data that Acumen
                  identified for measures that were active in 2010 and 2011. We determined
                  the steps that Acumen took to identify these data issues and the steps that
                  CMS took to address them. We reviewed how CMS has used the Part C
                  data; the analyses and reports provided by Acumen; and the results of the
                  data validation audits to monitor and assess MA organizations’
                  performance.
                  We excluded demonstration and cost contracts from our review. We also
                  did not include in our analysis any data issues related to the Benefit
                  Utilization measure, as CMS suspended collection of data for this measure
                  for the 2011 reporting period. In addition, we did not include in our
                  review of outlier issues the measures Private Fee-for-Service Plan
                  Enrollment Verification Calls or Private Fee-for-Service Provider Payment
                  Dispute Resolution Process because Acumen calculated outlier issues for
                  these two measures for the 2010 reporting period, but not for 2011.
                  Data Collection
                  Acumen. We requested that Acumen provide spreadsheet files containing
                  all Part C data issues that it identified for reporting periods in 2010 and
                  2011.21 We asked Acumen to include in these files all of the information it
                  had provided to CMS regarding the data issues, such as the MA contract
                  name, the contract number, the reporting period, the reporting measure,
                  the submission due date, and the data issue identified. We also asked
                  Acumen to include the dates when CMS approved sending notices
                  regarding data issues and the dates when Acumen issued the notices to the
                  MA contracts. We asked Acumen to provide the methodology documents
                  it created for its analyses of 2010 and 2011 Part C data.


                  20
                     CMS, Medicare Part C and Part D Reporting Requirements Data Validation
                  Procedure Manual, Appendix K: Pass/Not Pass Determination Methodology
                  Version 2.0, p. 1. Accessed at http://www.cms.gov/Medicare/Prescription-Drug-
                  Coverage/PrescriptionDrugCovContra/PartCDDataValidation.html on April 11, 2013.
                  21
                     Acumen identified MA contracts that did not submit data by the due date, submitted
                  data that contained placeholders, submitted inconsistent data, or submitted outlier data
                  values.


CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)                   8
                  We requested that Acumen complete a survey about its processes for
                  reviewing and analyzing data, and about its interactions with CMS
                  regarding MA contracts/plans that did not submit data by the due date,
                  submitted data that contained placeholders, submitted inconsistent data, or
                  submitted outlier data values. We asked Acumen to provide
                  documentation to support its survey responses.
                  CMS. We collected data from CMS’s Medicare Drug Benefit and C and D
                  Data Group within its Center for Medicare. We sent CMS the spreadsheet
                  files that Acumen provided to us and asked CMS for additional
                  information for each data issue listed in the spreadsheet. Specifically, we
                  asked CMS whether it had contacted the MA contract about the data issue,
                  and if so, how many times; how the MA contract responded; and whether
                  the MA contract had addressed the data issue. We also asked CMS
                  whether it had collected supporting documentation from the MA contract
                  to confirm that the original Part C data that the MA contract had submitted
                  had either been accurate or had been corrected and resubmitted. If CMS
                  did not contact the MA contract about the data issue that Acumen
                  identified, we asked CMS why it did not do so.
                  We surveyed CMS about its review of information that Acumen provided,
                  its processes and actions with regard to the data issues that Acumen
                  identified, and its use of reports on the Part C Reporting Requirements
                  data that Acumen provided. We inquired about CMS’s use of the results
                  of the Part C Reporting Requirements data validation audits. We also
                  inquired about CMS’s use of the Part C data to monitor and assess
                  MA organizations’ performance. We asked CMS to provide
                  documentation to support its survey responses.
                  Analysis
                  We reviewed and summarized Acumen’s survey responses and supporting
                  documentation regarding its processes and interactions with CMS
                  concerning Part C data issues. We reviewed and summarized CMS’s
                  survey responses and supporting documentation regarding its review and
                  use of the information provided by Acumen, its use of data validation
                  audit results, and its use of the Part C data to evaluate MA contracts’
                  performance.
                  We reviewed the spreadsheet files that Acumen provided and summarized
                  the number of data issues it identified for 2010 and 2011. We grouped the
                  data issues by type and calculated the total number of issues of each type
                  and for each Part C measure. We analyzed the data issues by MA contract
                  and determined whether an MA contract had the same type of issue for
                  multiple measures. We also determined whether an MA contract had data
                  issues with the same measure for both 2010 and 2011.


CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)      9
                  We reviewed the additional information that CMS provided for each data
                  issue in the spreadsheet files. We summarized the numbers and types of
                  data issues for which CMS contacted MA contracts. We also summarized
                  the actions that CMS took in response to these data issues.
                  Limitations
                  We did not validate Acumen’s analyses of submissions of 2010 and 2011
                  Part C data. We did not contact MA contracts about the Part C data issues
                  that Acumen identified for 2010 and 2011. We did not evaluate the quality
                  or sufficiency of the data validation audits and did not validate the audit
                  results provided to CMS. We also did not verify the survey responses that
                  CMS and Acumen provided.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)      10
                  FINDINGS
                  CMS implemented regular and extensive reviews of
                  the Part C data, but it conducted minimal followup on
                  data issues identified for 2010 and 2011
                  CMS requires Acumen to conduct thorough reviews and analyses of all
                  Part C data submitted by MA contracts. CMS designed these reviews to
                  identify MA contracts that did not submit data by the due date, submitted
                  data that contained placeholders, submitted data that were inconsistent, or
                  submitted outlier data values. Acumen has performed the required
                  reviews and supplied both CMS and MA contracts with information about
                  the data issues it identified. Acumen has also provided CMS with Part C
                  data analysis reports and performance metrics for MA contracts.
                  For 2010 and 2011, 638 MA contracts submitted Part C data to CMS.
                  Acumen identified 2,134 data issues across 513 of these
                  638 MA contracts. Acumen provided CMS with information about each
                  data issue it identified before notifying the MA contracts on CMS’s behalf.
                  Specifically, the data issues included 1,904 outlier incidents, 147 incidents
                  of overdue data, 50 incidents of inconsistent data, and 33 incidents of
                  placeholder data.22
                  CMS did not contact any MA organizations to determine the cause of the
                  outlier data values identified by Acumen or to ensure that inconsistent data
                  were corrected. CMS also did not follow up with MA organizations to
                  address data submitted with placeholder values. CMS has not required
                  Acumen to conduct these types of followup activities.
                  CMS followed up with MA organizations only regarding overdue Part C
                  data. Specifically, CMS issued noncompliance notices to four
                  MA contracts for eight incidents of overdue data. These incidents made
                  up less than 1 percent (8 of 2,134) of all data issues that Acumen identified
                  for 2010 and 2011.




                  22
                     For explanations of the terms “outlier data,” “inconsistent data,” and “placeholder
                  data,” see footnote 16.


CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)                 11
                             Many MA contracts received notices about submissions of
                             outlier data, but CMS did not determine whether outliers
                             reflected inaccurate reporting or atypical performance
                             Of the 513 MA contracts with data issues, 490 submitted Part C data that
                             contained outliers. Specifically, Acumen identified 1,904 outlier data
                             values across 7 Part C Reporting Requirements measures for 2010 and
                             2011, using indicators that it calculated for each of the 7 measures.23 For
                             example, Acumen calculated an indicator for the Grievances measure
                             equal to the number of reported grievances per 1,000 MA plan enrollees.
                             Acumen used the indicator data to identify MA plans that submitted values
                             that were below the 5th percentile or above the 95th percentile. Table 2
                             lists the Part C Reporting Requirements measures that Acumen reviewed
                             for outlier data values, the number of outlier data values that it identified
                             for these measures for 2010 and 2011, and the number of outlier indicators
                             that it calculated for each measure. As shown in Table 2, Acumen
                             identified far fewer outlier data values for the Organization
                             Determinations and Reconsiderations measure in 2011 than in 2010. This
                             reduction accounted for a 40-percent drop in the total number of outlier
                             data values from 2010 to 2011.

Table 2: Part C Reporting Requirements Measures Reviewed for Outlier Data Values, 2010 and 2011
                                                           Number of             Number of            Total Number         Number of
                                        Reporting          Outlier Values        Outlier Values       of Outlier           Calculated
 Measure
                                        Frequency          in Reporting          in Reporting         Values for           Outlier
                                                           Year 2010             Year 2011            2010 and 2011        Indicators
 Organization Determinations
                                        Quarterly                        894                  365                1,259                   41
 and Reconsiderations
 Grievances                             Quarterly                        151                  177                   328                      1
 Plan Oversight of Agents               Annual                            68                    72                  140                      1
 Provider Network Adequacy              Annual                            32                    13                   45                      3
 Adverse Events                         Annual                            29                    28                   57                      2
 Procedure Frequency                    Annual                            21                    23                   44                      1
 Special Needs Plans Care
                                        Annual                            19                    12                   31                      2
 Management
     Total                                                             1,214                  690                1,904
Source: OIG analysis of Part C Reporting Requirements data files and Methodology Documents that Acumen provided.
1                                                    th
  Acumen calculated five outlier indicators for the 4 quarter 2011 data submitted for the Organization Determinations and Reconsiderations
measure.




                             23
                               For the 2010 and 2011 reporting periods, Acumen calculated outlier data values for the
                             measures Procedure Frequency; Adverse Events; Provider Network Adequacy;
                             Grievances; Organization Determinations and Reconsiderations; Plan Oversight of
                             Agents; and Special Needs Plans Care Management.


         CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)                               12
                  Acumen notified all of the MA contracts that they had submitted outlier
                  data values and requested that they review the data to confirm their
                  accuracy. However, CMS did not contact any of these MA contracts to
                  gather more information about these outliers. Therefore, CMS did not
                  determine whether the outliers reflected inaccurate reporting or atypical
                  performance.
                  In the preamble to an April 2010 final rule regarding policy and technical
                  changes to the Part C and Part D programs, CMS stated that analyzing
                  reported data for outliers identifies potential noncompliance and the need
                  for further investigation and is a valuable tool to monitor and compare
                  contracting organizations in a timely and effective manner.24 In response
                  to the Office of Inspector General’s (OIG) inquiry as to whether CMS had
                  contacted MA contracts that submitted outlier data, CMS staff stated:
                       [A]n outlier doesn’t mean [an MA contract] submitted inaccurate
                       data. As a result, outlier data do not trigger any action except that
                       plans/contracts are contacted and informed that they have
                       submitted outliers and that they should verify/review their data
                       submission.25
                  CMS did not require MA contracts to respond to Acumen’s outlier notices
                  or to provide any documentation that they verified the accuracy of their
                  data. In addition, CMS did not require Acumen to check for
                  resubmissions of Part C data in HPMS or to follow up with MA contracts
                  to inquire about outlier data values.
                  MA contracts submitted outlier values for successive years and multiple
                  Part C Reporting Requirements measures. Acumen determined that
                  490 MA contracts had submitted data that contained outliers for 2010 and
                  2011. Twenty-two percent of the 490 MA contracts (110 of 490)
                  submitted such data for the same Reporting Requirements measure in both
                  2010 and 2011.
                  Forty percent of the 490 MA contracts (198 of 490) submitted data that
                  contained outlier values for two or more Part C Reporting Requirements
                  measures during the 2-year review period. Of these 198 MA contracts,
                  56 submitted outlier data values for three or more measures, including
                  3 contracts that submitted outlier data values for 5 of the 7 Part C
                  Reporting Requirements measures.




                  24
                    75 Fed. Reg. 19686–19687 (April 15, 2010). 

                  25
                    CMS, response to OIG survey: Medicare Advantage Organizations’ Part C Reporting

                  Requirements, January 2013. 



CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)             13
                  CMS did not follow up to ensure that inconsistent data
                  identified by its contractor were corrected
                  Acumen conducted consistency checks on data submitted for four of the
                  Part C Reporting Requirements measures it reviewed. Data submitted for
                  two of these measures—Provider Network Adequacy and Special Needs
                  Plans Care Management—contained inconsistencies. For data submitted
                  in 2010 and 2011, Acumen identified 50 instances of inconsistent data
                  values for 41 MA contracts. Acumen notified these MA contracts of the
                  inconsistent data. However, CMS did not contact the MA contracts to
                  confirm that the issues were corrected or to determine why the issues
                  occurred. In addition, CMS has not required Acumen to track whether an
                  MA contract resubmits Part C data in HPMS in response to notices of
                  inconsistent data.
                  Ten of the forty-one MA contracts were identified as having inconsistent
                  data for the Special Needs Plans Care Management measure. Acumen
                  routinely performs two consistency checks of data submitted for this
                  measure. For example, Acumen reviews the data to ensure that the
                  number of new Special Needs Plans enrollees receiving an initial
                  assessment does not exceed the total number of new enrollees reported.
                  Acumen sent spreadsheet reports to CMS listing the inconsistent data it
                  identified for this measure for 2011 and received approval from CMS to
                  notify the 10 MA contracts that submitted these data. When OIG
                  requested specific information from CMS on Part C data issues, CMS
                  responded that it believed HPMS had already been rejecting submissions
                  with inconsistent data. In January 2013, during the course of OIG’s
                  review, CMS submitted a Change Request to modify HPMS to prevent the
                  submission of Special Needs Plans Care Management data that would fail
                  the two consistency checks.
                  Thirty-one MA contracts were identified as having inconsistent data for
                  the Provider Network Adequacy measure. For one of the two consistency
                  checks of the data for this measure, Acumen determines whether the
                  number of specialists participating in the network for the entire plan year
                  exceeds the number of specialists participating at the start of the plan year.
                  One of the thirty-one contracts was identified as having the same
                  inconsistency in both 2010 and 2011.

                  CMS has made limited use of the Part C data despite
                  its investments in contractor reviews of the data
                  CMS has contracted with Acumen to review, analyze, and report on the
                  Part C data, but CMS has not used these data or the analyses that Acumen
                  generated to review MA contracts’ performance. Since 2010, CMS has



CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)         14
                  required that each MA contract undergo an independent yearly audit of
                  data submitted for the Part C Reporting Requirements. Most
                  MA organizations have scored well on these audits. Although CMS has
                  used the Part C data to respond to inquiries, it has not yet released these
                  data to the public, as specified in Acumen’s Statement of Work.
                  CMS has not used the quantitative analyses of Part C data that
                  Acumen produced to review MA contracts’ performance
                  CMS has indicated that it reviews the quantitative analysis reports that
                  Acumen created, which include outlier analyses. Acumen has also
                  calculated performance scores for MA contracts at CMS’s request.26
                  However, CMS has not used this information to inform the selection of
                  MA contracts for audits or to issue compliance notices to MA contracts for
                  performance concerns.
                  Part C regulations specify that CMS has the authority to find an
                  MA organization out of compliance with contract requirements when the
                  organization’s performance represents an outlier relative to the
                  performance of peer organizations.27 More than 500 MA contracts have
                  submitted Part C data for each reporting period since 2009. However, in
                  response to OIG’s inquiry, CMS staff stated that a limitation in using the
                  Part C data to monitor and assess MA contracts’ performance is that “there
                  is little comparative data available for [the Part C Reporting Requirements
                  measures] ... to establish benchmarks for ‘good’ or ‘poor’ performance.”
                  CMS also stated that it did not use the Part C data to assess
                  MA organizations’ continued participation in the MA program because
                  there are “factors much larger than just Part C Reporting Requirements
                  data” on which to base decisions about program participation.
                  MA contracts scored well on the data validation audits that
                  CMS required
                  Only 3 percent of MA contracts failed to pass their independent data
                  validation audits for 2010 and 2011. Data validation audits for the Part C
                  Reporting Requirements were first required in 2011 to review individual
                  MA contracts’ 2010 data submissions for five measures. For each
                  MA contract, these retrospective audits were designed to uncover
                  deficiencies in reporting practices and verify that the Part C data values
                  submitted to CMS are supported by documentation and data files.

                  26
                     Acumen calculated performance scores for all MA contracts that passed the data
                  validation audits. For each MA contract, Acumen calculated performance scores for
                  indicators for three Part C Reporting Requirements measures as well as a composite
                  performance score.
                  27
                     42 CFR § 422.504(m)(2).


CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)             15
                  For 2010 and 2011, CMS required any MA contract that failed to pass its
                  data validation audit to submit a corrective action plan. However, CMS
                  did not require MA contracts to submit any documentation to confirm that
                  they resolved the issues that the audits had identified.
                  In fall 2012, CMS performed a limited review of data validation
                  workpapers to ensure that the audits were meeting their goal of improving
                  the accuracy and validity of the Part C data.28 The only finding of this
                  workpaper analysis was that some data validation auditors started their
                  audit activities before the specified review period. CMS concluded that
                  the audits “were meeting the initial goal of data validation.”
                  CMS used the Part C data to respond to a small number of
                  inquiries, but it has not released the data to the public as
                  intended
                  In published program documents, CMS has stated that it uses the Part C
                  data to respond to inquiries from Congress, oversight agencies, and the
                  public regarding MA organizations’ performance.29 CMS has used the
                  Part C data reported for two measures to respond to two specific inquiries.
                  CMS received a complaint about one MA organization’s Special Needs
                  Plans—specifically, about the performance of initial and annual health risk
                  assessments. CMS analyzed data for the Special Needs Plans Care
                  Management measure for 2010. CMS’s analysis confirmed that the
                  MA organization in question reported performing health risk assessments
                  for only 22.6 percent of new enrollees in 2010, which was significantly
                  below the average of 47.2 percent for all MA Special Needs Plans. CMS
                  requested that the MA organization confirm “the accuracy or inaccuracy
                  of the numbers reported” for the Special Needs Plans Care Management
                  measure and explain the low numbers of health risk assessments that the
                  organization reported having performed.
                  In another inquiry, the Government Accountability Office (GAO) asked
                  CMS about actions the agency had taken in response to a recommendation
                  in a December 2008 GAO report. GAO recommended that CMS
                  investigate the extent to which beneficiaries in private fee-for-service



                  28
                     CMS requested 2012 data validation workpapers for three MA contracts to conduct a
                  workpaper analysis. Workpapers were requested for one Part C Reporting Requirements
                  measure and four Part D Reporting Requirements measures.
                  29
                     CMS, Medicare Part C and Part D Reporting Requirements Data Validation
                  Procedure Manual, Version 2.0: December 2011, p. 1. Accessed at
                  http://www.cms.gov/Medicare/Prescription-Drug-
                  Coverage/PrescriptionDrugCovContra/Downloads/DVProcedureManualVer2.pdf on
                  June 26, 2013.


CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)               16
                  plans face unexpected costs.30 In response to GAO’s inquiry, CMS
                  reported that it analyzed the data that MA plans submitted for the
                  Organization Determinations and Reconsiderations measure for
                  2009 and 2010. CMS compared the data submitted by private
                  fee-for-service plans to the data submitted by other types of MA plans.
                  CMS’s analysis determined that private fee-for-service plans were not
                  outliers compared to other types of MA plans for the numbers of
                  determinations and reconsiderations reported for 2009. However, for
                  2010, CMS found that private fee-for-service plans generally had lower
                  rates of decisions that were favorable and partially favorable to the
                  beneficiary compared to other types of MA plans.
                  CMS has not decided when Part C Reporting Requirements Public Use
                  Files (PUFs) will be created or released to the public. In Acumen’s
                  Statement of Work, CMS stated that one purpose of the contract was to
                  create Part C Reporting Requirements PUFs. CMS indicated that Acumen
                  should create the PUFs quarterly, using final Part C data, beginning in
                  August 2009. CMS also specified that the files should be
                  consumer-friendly and should be posted on CMS’s Web site with a link to
                  Data.gov. As of January 2013, CMS indicated that it had not required
                  Acumen to create PUFs because the Part C data were too new. As of
                  May 2013, CMS had posted selected data for two measures—Grievances
                  and Special Needs Plans Care Management—on CMS.gov’s “Part C
                  and D Performance Data” page.




                  30
                    GAO, Medicare Advantage Characteristics, Financial Risks, and Disenrollment Rates
                  of Beneficiaries in Private Fee-for-Service Plans, GAO-09-25, December 2008.
                  Accessed at http://www.gao.gov/assets/290/284340.pdf on April 9, 2013.


CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)              17
                  CONCLUSION AND RECOMMENDATIONS
                  In 2012, 27 percent of Medicare beneficiaries were enrolled in MA plans.
                  The data collected under the Part C Reporting Requirements pertain to the
                  performance of MA organizations and often are not available to CMS
                  from other sources.
                  CMS implemented an extensive plan to ensure that MA contracts’ Part C
                  data submissions are reviewed and that data issues are uncovered. CMS’s
                  contractor, Acumen, has consistently notified both CMS and
                  MA organizations regarding these data issues. However, CMS has not
                  required Acumen to follow up with MA organizations to determine the
                  reasons for the data issues that Acumen has identified.
                  For 2010 and 2011, Acumen identified 2,134 data issues with
                  MA organizations’ Part C data submissions. In response, CMS issued
                  noncompliance notices to four MA contracts for eight incidents of overdue
                  data, but did not follow up with any other MA contracts to determine the
                  causes of the data issues or to ensure that the issues were addressed.
                  Specifically, CMS did not determine whether outlier data values reflected
                  inaccurate reporting or atypical performance and did not ensure that
                  inconsistent data were corrected.
                  CMS has required that Acumen and independent auditing firms play key
                  roles in the review and analysis of the Part C data. However, CMS has
                  made limited use of the Part C data despite its investments in these
                  contractors’ reviews. CMS has not used the Part C data as part of its
                  reviews of MA organizations’ performance, nor has it made public all of
                  the data as intended.
                  Our findings indicate that additional effort is needed to ensure that
                  identified data issues are investigated and addressed, that the data are
                  considered in reviews of MA contracts’ performance, and that the data are
                  publicly available.
                  We recommend that CMS:
                  Determine whether outlier data values submitted by
                  MA contracts reflect inaccurate reporting or atypical
                  performance
                  CMS has contracted with Acumen to provide regular review and analysis
                  of the Part C data submitted by MA contracts. Although having outlier
                  data values does not necessarily indicate that an MA contract is a poor
                  performer, MA contracts that repeatedly submit data that contain outliers
                  may be reporting or performing differently than their counterparts. It is
                  important that CMS communicate with MA contracts to determine the



CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)    18
                  nature of outlier data values and to ensure that reporting errors or
                  performance issues are addressed.
                  Use appropriate Part C data as part of its reviews of
                  MA contracts’ performance
                  CMS has invested in contractor reviews to ensure the completeness,
                  accuracy, and validity of the Part C data. These data provide insight into
                  how an MA organization is providing services to Medicare beneficiaries.
                  OIG understands that CMS considers many factors in its assessment of an
                  MA contract’s performance. However, data for the Part C Reporting
                  Requirements measures are not collected through other means and may be
                  an important source of information for MA contract oversight.
                  Establish a timeline for releasing the Part C Reporting
                  Requirements PUFs
                  CMS specified its intent to create Part C Reporting Requirements PUFs
                  in 2009. OIG understands that CMS is reluctant to publicly release data
                  before they have been properly reviewed and validated. However, the
                  Part C data have been reviewed by Acumen since 2009 and have
                  undergone 2 years of independent validation audits. Using the
                  information that Acumen regularly provides along with the results of data
                  validation audits, CMS should be able to determine a timeline for
                  releasing these data to the public.

                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with all of OIG’s recommendations. In its comments on
                  the draft report, CMS acknowledged that the Part C Reporting
                  Requirements data are “an important source of information…about
                  beneficiary use of available services, patient safety, grievance rates, and
                  other factors pertaining to the performance of Medicare Advantage plans
                  that [was not available] prior to collection and reporting of these data.”
                  CMS concurred with our first recommendation, stating that it can do more
                  to determine whether outlier data values submitted by MA organizations
                  reflect inaccurate reporting or atypical performance. CMS stated that it
                  will require MA organizations with outlier data to report to CMS whether
                  these data were reported inaccurately or reflect atypical performance. For
                  inaccurate data, CMS will continue to require MA organizations to correct
                  and resubmit these data. For data that an MA organization confirms are
                  accurate, CMS stated that it will follow up with the MA organization if the
                  data indicate potential problems in performance or for patient safety.




CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)      19
                  CMS concurred with our second recommendation. CMS acknowledged
                  that the Part C data have “typically not been leveraged enough” in CMS
                  components’ reviews of MA organizations. CMS stated that it will send
                  the annual reports and appropriate ad hoc reports prepared by Acumen to
                  all group and division directors involved in reviews of MA organizations.
                  CMS will request that the directors indicate the usefulness of these Part C
                  data reports every time the reports are issued.
                  CMS concurred with our third recommendation. CMS stated that it will
                  begin releasing PUFs for the Part C Grievances and Special Needs Plans
                  Care Management data in the second quarter of 2014. CMS stated that
                  additional PUFs for the Part C reporting sections will be made available
                  “as the data achieve a degree of reporting reliability and validity that CMS
                  considers appropriate for public reporting.”
                  The full text of CMS’s comments is provided in Appendix B.




CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)       20
                  APPENDIX A
                  Descriptions of the Part C Reporting Requirements
                  Measures
                  The Part C Reporting Requirements measures described here are the
                  original 13 measures established by CMS.
                  Benefit Utilization
                  This measure was composed of 138 data elements reported by
                  MA contracts, including utilization, payment, and cost-sharing
                  information for different types of Part A and Part B services. MA
                  contracts reported this measure annually for each MA plan. CMS
                  suspended data collection for this measure after 2010.
                  Procedure Frequency
                  This measure was composed of 23 data elements reported by
                  MA contracts regarding the number of unique enrollees who received
                  specific medical procedures, such as cardiac catheterizations, joint
                  replacements, and organ transplants. MA contracts reported this measure
                  annually. CMS suspended data collection for this measure after 2012.
                  Serious Reportable Adverse Events
                  This measure is composed of 21 data elements reported by MA contracts
                  regarding the number of specific types of adverse events and
                  hospital-acquired conditions that occurred in acute-care hospitals or after
                  discharge from acute-care hospitals. Examples include the number of
                  surgeries on the wrong body part, the number of surgeries with a foreign
                  object left in the patient, and the number of catheter-associated urinary
                  tract infections. MA contracts report this measure annually.
                  Provider Network Adequacy
                  This measure was composed of 96 data elements reported by
                  MA contracts regarding the number of different types of providers that
                  were in the MA contract’s network during the reporting period. Examples
                  include the number of primary care internal medicine physicians in the
                  network on the first day of the reporting period and the number of
                  cardiologists accepting new patients at the start of the reporting period.
                  MA contracts reported this measure annually. CMS suspended data
                  collection for this measure after 2012.




CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)      21
                  Grievances
                  This measure is composed of seven data elements reported by
                  MA contracts regarding the number of different types of grievances filed
                  by enrollees and completed during the reporting period. MA contracts
                  report this measure quarterly for each MA plan.
                  Organization Determinations and Reconsiderations
                  This measure is composed of six data elements reported by MA contracts
                  regarding the number and type of determinations made in response to
                  enrollee requests for coverage of items or services, and the number and
                  type of reconsiderations resulting from MA contracts’ reviews of
                  determinations. MA contracts report this measure quarterly.
                  Employer Group Plan Sponsors
                  This measure is composed of nine data elements reported by
                  MA contracts. For each MA plan, MA contracts report information about
                  the employer groups that have arrangements with the plan to provide
                  health benefits to their group members. This measure is reported
                  annually.
                  Private Fee-For-Service Plan Enrollment Verification Calls
                  This measure is composed of three data elements reported by private
                  fee-for-service MA contracts regarding the number of telephone contacts
                  made and educational letters sent to prospective enrollees in response to
                  enrollment requests. MA contracts report this measure annually for each
                  private fee-for-service plan.
                  Private Fee-For-Service Provider Payment Dispute Resolution
                  Process
                  This measure is composed of three data elements reported by private
                  fee-for-service MA contracts regarding the number of provider payment
                  appeals and denials during a reporting period. MA contracts report this
                  measure annually for each private fee-for-service plan.
                  Agent Compensation Structure
                  This measure was composed of six data elements reported by
                  MA contracts. The type of information collected included the number of
                  licensed independent agents selling plans in the reporting period and the
                  compensation that these agents received during the reporting period.
                  MA contracts reported this measure annually. CMS suspended data
                  collection for this measure after 2009.




CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)    22
                  Agent Training and Testing
                  This measure was composed of eight data elements reported by
                  MA contracts regarding the number of sales agents who completed
                  training and the number of agents who took and passed tests.
                  MA contracts reported this measure annually. CMS suspended data
                  collection for this measure after 2009.
                  Plan Oversight of Agents
                  This measure was composed of six data elements reported by
                  MA contracts regarding complaints and disciplinary actions involving
                  agents licensed to sell plans on behalf of the MA organizations during the
                  reporting period. This measure was reported annually. CMS suspended
                  data collection for this measure after 2012 and plans to resume data
                  collection in 2014.
                  Special Needs Plans Care Management
                  This measure is composed of four data elements reported by MA contracts
                  regarding the initial health risk assessments and annual reassessments
                  performed on enrollees in MA contracts’ Special Needs Plans.
                  MA contracts report this measure annually for each Special Needs Plan.




CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)     23
APPENDIX 8
Agency Comments




  (-;,,.,_~
        f
   •".,..,.4"'"''"'•,       DEPARTMENT OF HEALTH & HUMAN SERVICES                                          Centers for Medicare & Medicaid Services


                                                                                                          Administrator
                                                                                                          Washington, DC 20201




                        DATE:
                                           JAN 16 2014
                        TO: 	            Daniel R. Levinson 

                                         Jnspector'neneral 

                                                             /S/
                        FROM: 	          Maril\yn Tavetmer 

                                         Administrato'J:. 


                        SUBJECT: 	 Office oflnspector General (OJG) Draft Report: "CMS Regularly Reviews Part
                                   C Reporting Requirements Data but CMS's Follow-up and Use of the Data are
                                   Limited" (OEI-03-11-00720)


                        Thank you for the opportunity to review and comment on the OIG draft report titled above. The
                        OIG reviewed the extent and types of Part C Reporting Requirements data issues identified by
                        Acumen for measures (now called "reporting sections") that were active in 2010 and 2011, In
                        addition, the OIG reviewed documentation supplied by CMS in an attempt to determine the steps
                        taken by Acumen to identify data issues and steps CMS took to address them. 1

                        The data provided to CMS through the Part C reporting requirements are an important source of
                        information for CMS to provide information about beneficiary use of available services, patient
                        safety, grievance rates, and other factors pertaining to the performance of Medicare Advantage
                        (MA) plans that could not be answered prior to collection and reporting of these data.

                        We appreciate OIG's efforts in working with CMS to ensure that the Part C reporting
                        requirements data are more widely distributed and used to assess performance of MA plans. Our
                        response to each of the 010 recommendations follows:

                        Recommendation:

                        The OIG recommends CMS determine whether outlier data values submitted by Medicare
                        Advantage (MA) contracts reflect inaccurate reporting or atypical performance.

                        CMS Response:

                        The CMS concurs that it can do more to determine whether outlier data values submitted by MA
                        organizations reflect inaccurate reporting or atypical performance.

                        1 Acumen is a CMS contractor that reviews and analyzes all Part C Reporting Requirements data submitted by MA
                        organizations (MA only contracts and MA-PD contracts), identifies data issues, and notifies affected MA
                        organizations.




CMS's Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)                                                            24
CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)   25
CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)   26
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Robert Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda Ragone, Deputy Regional Inspector General.
                  Amy Sernyak served as team leader for this study. Other Office of
                  Evaluation and Inspections staff from the Philadelphia regional office who
                  conducted this study include Joanna Bisgaier and Conswelia McCourt.
                  Central office staff who provided support include Meghan Kearns,
                  Christine Moritz, and Rita Wurm.




CMS’s Followup and Use of Part C Reporting Requirements Data Are Limited (OEI-03-11-00720)     27
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
